                                              NATIONAL SCIENCE FOUNDATION
                                              OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                          CLOSEOUT MEMORANDUM

Case Number: A02030020
                                                                              11     Page 1 of 1   11
     I n March 2002, we received a n allegation t h a t a group of American researchers had
     committed plagiarism by publishing data1 collected by other researchers. The
     American researchers received courtesy access to unpublished data collected by a n
     international group of researchers (IGORI.2 Although IGOR shared its data with
     the Americans, it did so with the understanding t h a t the data not be discussed in
     print until IGOR had published its own results. I t was alleged the Americans'
     publication not only presented the confidential data, but did so without proper
     attribution. Although several of the Americans have received NSF funding, NSF
     did not fund any of them for the research described in their publication. Therefore,
     we lack jurisdiction to pursue this allegation. Although we lacked jurisdiction, we
     forwarded the allegation to the appropriate institutional authority for evaluation.
     Accordingly, this case is closed.




         1   (footnote redacted)
         2   There were international collaborators from France and Japan.


                          Agent                  Attorney               Supervisor          AIGI

 Sign 1 date
